- --
m
                  .
                'ri   %




   falsiflcation. The subject,
     a w d -from              N
                              -F
                               S
                                 CIASEOUT FOR M92090037



             This case was brought to the attention of OIG on September 18, 1992 by
                program associate in the
                        Director of the Division of

                                                               of
                                                                       Program, at the request of=
                                                                                         at NSF. The
     allegation, prompted by the subject's rsistent refusal to share data, was data fabrication or
                                                                                       received a 1973
                                                                formed the basis of a widely cited book.
     Subsequently, two other researchers challenged the accuracy of the subject's findings and
                                                                                                         ,




   requested access to the data on which they were based. The subject was repeatedly unresponsive
     to their requests and they eventually published an article arguing that her data were inaccurate.
  When one of the other researchers reviewed a research proposal submitted to NSF by the subject
     in 1988, he wrote to the program officer about the subject's failure to make her 1973 data
   readily available for reanalysis. NSF raised this concern with the subject in the course of
  discussions about her pending career development grant proposal, and delayed processing the
   award until the subject promised to deposit the data at    -eht
 hta(-et                         archive). Shortly thereafter, she deposited the computer tapes and not
   the raw data, although she told the NSF program off~cerin charge of the (
-gram                    that the archive had all the data.

        Two years later, after prodding from the archive, she deposited the raw data, but attached
highly restrictive conditions to their use. These were explained as enabling her to do further
analyses, but she refused to pexmit the archive to give yet another researcher access to certain
restricted variables to redo the original analyses. Her unwillingness to make her data available
for reanalysis led OIG to consider the possibility that the data had been falsified or fabricated.

        The subject's actions were clearly inconsistent with the commitment of NSF and the
scientific community to open communication. NSF policy, unanimously adopted by the National
Science Board, explicitly recognizes the importance the community attaches to openness by
"expect[ing] investigators to share with other researchers,. .. within a reasonable time, the data.. .
gathered in the course of the[ir] work" and encouraging NSF program managers to implement
this policy of openness in "the proposal review process [and] through award negotiations and
conditions." (Grants for Research and Education in Science and Engineering, page 17). OIG
considered the possibility that the subject's persistent refusal to share data might itself constitute
misconduct because it violated community norms regarding openness.

        After an exchange of letters in which NSF program officers threatened various severe
sanctions if the subject refused to release her data, the subject capitulated and made the data
freely available. Her action brings her into complirince with community norms about data
sharing and we decided that the subject's earlier reluctance to share her data did not, as such,
rise to the level of misconduct. Because the suspicions about data fabrication and falsification
were based solely on the circumstantial evidence of the subject's refusal to share data and

                                            Page 1 of 2
                                CLOSEOUT FORM92090037

because the subject's subsequent actions seem motivated by her embarrassment at how she coded
and analyzed her data (evidenced in her karning to other researchers about possible inaccuracies
in coding and analysis and her promise to account for and correct these errors), we now have
less reason to worry that the data are not genuine. Moreover, if there was indeed misconduct
in data collection or reporting, other researchers will now have direct access to evidence of it
and can bring that evidence to our attention. With the data open for scrutiny, the normal
processes of scientific evaluation can be counted on to raise issues of misconduct if the newly
available facts warrant it.

         OIG has determined that there is no reason to continue to pursue this matter. This case
is closed without further action.




Staff Scientist, Oversight

Concurrence:




Peggy L. Fischer
Acting Deputy Assistant Inspector General for Oversight



                             dd93
James J. Zwolenik
Assistant Inspector General for Oversight




Montgomery K. Fisher
Counsel to the Inspector General



cc:    Assistant Inspector General for Oversight
       Inspector General


                                          Page 2 of 2
